CERTIFICATE OF SERVICE
No. 19-396
Charles Simon

Petitioners)
v.
United States Department of Justice, et al.
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CHARLES
Simon Petition for Rehearing, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Department of Justice
950 Pennsylvania Avenue, Room 5614
Washington, DC 20530-0001
(202)514-2217
Counsel for United States DOJ

Lucas "DeDeus

December 10, 2019
SCP Tracking: Simon-3410 Dereimer Avenue-Cover Tan

